                                     SOCIAL SECURITY
MEMORANDUM

Date:   September 28, 2011                                              Refer To:

To:     The Commissioner

From:   Inspector General

Subject: QuickResponse Evaluation: The Social Security Administration’s Plan to Reduce
        Improper Payments Under Executive Order 13520, as Reported in March 2011
        (A-15-11-01126)


        The attached final quick response evaluation presents the results of our review. Our
        objectives were to review the Accountable Official’s Annual Report to the Office of the
        Inspector General, as required by Executive Order 13520, Reducing Improper
        Payments, and determine whether the (1) figures presented were accurate and
        (2) Agency complied with all requirements of the Executive Order.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

        Attachment
  QUICK RESPONSE
   EVALUATION
  The Social Security Administration’s
Plan to Reduce Improper Payments Under
   Executive Order 13520, as Reported
             in March 2011

            A-15-11-01126




           September 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                    Background
OBJECTIVES
Our objectives were to review the Accountable Official’s Annual Report to the Office of
the Inspector General (OIG), as required by Executive Order 13520, Reducing Improper
Payments, and determine whether the (1) figures presented were accurate and
(2) Agency complied with all requirements of the Executive Order.

BACKGROUND
On November 20, 2009, the President issued Executive Order 13520. 1 The Executive
Order provides that when the Government makes payments to individuals and
businesses, such as program beneficiaries, grantees, or contractors, or on behalf of
program beneficiaries, it must make every effort to confirm the right recipient is
receiving the correct payment. 2 The purpose of the Executive Order is to reduce
improper payments by intensifying efforts to eliminate payment error, waste, fraud, and
abuse in the major programs administered by the Government, while continuing to
ensure Federal programs serve and provide access to their intended beneficiaries.3

As part of the requirements of the Executive Order, 4 each agency with a high-priority
program identified by the Office of Management and Budget (OMB) shall, within
180 days of the Order, provide the agency’s OIG a report containing the

1. methodology for identifying and measuring improper payments by the agency’s high-
   priority programs;
2. plans, along with supporting analysis, for meeting the reduction targets for improper
   payments in the agency’s high-priority programs; and
3. plan, along with supporting analysis, for ensuring that initiatives undertaken pursuant
   to the Order do not unduly burden program access and participation by eligible
   beneficiaries.

Within 180 days of the Order, and at least once every quarter thereafter, each agency
head is also required to submit to the agency’s OIG and the Council of Inspectors
General on Integrity and Efficiency (CIGIE), and make available to the public, a report
on high-dollar improper payments identified by the agency, subject to Federal privacy

1
 Reducing Improper Payments and Eliminating Waste in Federal Programs, 74 Fed. Reg. 62201
(Nov. 25, 2009).
2
    Id.
3
    Id.
4
    74 Fed. Reg., supra at 62202.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)     1
policies and to the extent permitted by law. 5 Agencies are also required to place a
prominently displayed link on their Internet homepages to Internet-based resources for
addressing improper payments. 6 Such resources include information about improper
payments under high-priority programs and a central method of collecting from the
public information concerning suspected incidents of waste, fraud, and abuse by an
entity receiving Federal funds that have led or may lead to improper payments by the
Government. 7 These resources are required to be published by the Secretary of the
Treasury, in coordination with the Attorney General and Director of OMB. 8

HIGH-PRIORITY PROGRAMS

OMB guidance specifies how it will determine the high-priority programs, as required
under Section 2(a)(i) of the Executive Order 13520. 9 The Director of OMB will
determine high-priority programs annually based on improper payment reporting in
agencies’ annual Performance and Accountability Reports (PAR) or Agency Financial
Reports (AFR). 10 The Director of OMB will classify a program as high-priority if the
program meets the following criteria. 11

1. It is susceptible to significant improper payments, as defined by legislation and OMB
   implementing guidance and
           •   measured and reported errors above the threshold determined by OMB, and
               contributed to the majority of improper payments in the most recent reporting
               year; or
           •   has not reported an improper payment dollar amount in the most recent
               reporting year, but has in the past reported errors above the threshold
               determined by OMB and not received relief from OMB from measuring and
               reporting; or
           •   has not yet reported an overall program improper payment dollar amount, but
               the aggregate of the measured program’s component errors are above the
               threshold.



5
    74 Fed. Reg., supra at 62203.
6
    74 Fed. Reg., supra at 62202.
7
    Id.
8
    74 Fed. Reg., supra at 62201 to 62202.
9
 OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix C, Part III,
Requirements for Implementing Executive Order 13520: Reducing Improper Payments, Section (A)(1)(e).
10
     Id.
11
     Id.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)           2
2. For those programs with error amounts close to the threshold, but with error rates
   below 2 percent of program outlays, agencies may work with OMB to determine
   whether the program can be exempt from fulfilling certain requirements of the
   Executive Order.

The Fiscal Year (FY) 2010 threshold was $750 million in improper payments, as
reported in each agency’s PAR or AFR. 12

IMPROPER PAYMENTS

Each year, the Social Security Administration (SSA) reports payment accuracy rates for
both the Retirement, Survivors and Disability Insurance (RSDI) and Supplemental
Security Income (SSI) programs based on its stewardship reviews. The Agency used
the reviews as the basic measure to report on the accuracy of benefit payments. Each
year, SSA reports over- and underpayments from its stewardship reviews of nonmedical
aspects of the Retirement and Survivors Insurance (RSI), Disability Insurance (DI), and
SSI programs. In accordance with OMB’s guidelines13 implementing the provisions of
the Improper Payments Information Act of 2002 (IPIA), 14 SSA reports payments that
should not have been made or payments that were made in an incorrect amount as
improper. Stewardship review findings provide the basis for reports to Congress and
other monitoring authorities. The Agency also used data from these reviews in
corrective action planning and in monitoring performance, as required by the
Government Performance and Results Act of 1993. 15

Payment accuracy rates developed in SSA’s stewardship reviews reflect the accuracy
of payments issued to RSDI beneficiaries and SSI recipients who received or were
issued a payment for the sample month. The Agency selects a statistically valid
national sample monthly from the payment rolls, which consist of RSDI and SSI
beneficiaries in current pay status. For each sample selected, the recipient or
representative payee is interviewed; collateral contacts are made, as needed; and all
nonmedical eligibility factors are redeveloped as of the current sample month. The
Agency inputs the findings into a national database for analysis and report preparation.
Separate rates are determined for accuracy of payments in terms of over- and
underpayment dollars.




12
     Id.
13
  OMB, M-03-13, Implementation Guidance for the Improper Payments Information Act of 2002, Pub. L.
No. 107-300, Page 1 (May 21, 2003).
14
     Pub. L. No. 107-300, 116 Stat. 2350 (2002).
15
     Pub. L. No. 103-62. 107 Stat. 285, Pages 2 - 6 (1993).


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)              3
                                                            Results of Review
Our review determined that, except for three instances, the Agency accurately
presented the required information in the Accountable Official’s Annual Report to the
OIG 16 under Executive Order 13520.

REQUIREMENTS OF EXECUTIVE ORDER

In March 2010, OMB issued guidance 17 for implementing the requirements of the
Executive Order. We reviewed the Accountable Official’s March 14, 2011 Annual
Report to ensure the Agency addressed all requirements of the Executive Order.

Methodology for Identifying and Measuring Improper Payments

The first requirement issued by OMB states that the Annual Report must describe the
agency’s methodology for identifying and measuring improper payments in the agency’s
high-priority programs. 18 This information should include the IPIA program error
measurement methodology, sample size, and related calculations; results of annual
measurements; and applicable other measurement-related information. 19

In its Annual Report, SSA described the stewardship reviews it used to measure the
accuracy of payments to beneficiaries in current payment status. Each FY, the Office of
Quality Performance (OQP) conducts stewardship reviews of both the RSDI and SSI
payments issued in that FY. OQP based the stewardship reviews on a monthly sample
selection from the RSDI and SSI recipients in current pay status. In FY 2009, OQP
reviewed about 1,500 RSDI cases and 4,310 SSI cases to determine the payment
accuracy rates. If OQP detected an error, it determined whether the payment error met
the definition of improper (Appendix D). If a program payment was not considered
unavoidable, 20 it was included in the projection of improper payment dollars.

The Annual Report presented the payment accuracy results from the stewardship
reviews through tables titled, Improper Payments Experience FY 2007 – FY 2009. This
information, along with the description of the Agency’s methodology for identifying and
measuring improper payments for high-priority programs, adequately satisfied OMB’s
first requirement.
16
   The Annual Report to the OIG can be found on the Agency’s Improper Payments Website,
http://www.ssa.gov/improperpayments/.
17
     OMB Circular A-123, supra, Appendix C, Part III.
18
     74 Fed. Reg., supra at 62202.
19
     OMB Circular A-123, supra, Appendix C, Part III, Page 17.
20
  Unavoidable payments are payments that result from legal or policy requirements. These payments
are not considered “erroneous” by SSA.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)             4
Plan for Meeting the Reduction Targets for Improper Payments

The second OMB requirement states that the Annual Report must contain the agency’s
plan and supporting analysis for meeting the reduction targets for improper payments.21
This requirement includes

1. root causes of program errors;
2. corrective actions that are being implemented and their full implementation dates;
3. the types of errors the corrective actions will address and their expected impact;
4. the anticipated costs of the corrective actions and their likely return on investment;
   and
5. an explanation of the program’s performance in meeting its reduction targets.

The Agency met this requirement by reporting all applicable information for the RSDI
and SSI programs.

RSDI

On April 22, 2010, OMB confirmed that SSA was not required to establish supplemental
measures and targets for RSDI because the payment error rate was below OMB’s
threshold of 2 percent of program outlays. However, SSA still fulfilled other
transparency-related reporting by describing root causes of over- and underpayments.

SSA’s Annual Report states the root causes of RSDI overpayments were substantial
gainful activity (SGA), Government Pension Offset (GPO), wages, and self-employment
income (SEI). The root causes of RSDI underpayments were computations, wages,
SEI, and workers’ compensation. To mitigate these improper payments, SSA identified
various areas to analyze for potential reduction in payment errors, including

1. prioritizing the systems enforcement alerts used to identify unreported earnings and
   then working cases with the highest earnings first;
2. targeting work continuing disability review (CDR) cases that are over 365 days old;
3. extending the SSI Automated Telephone Wage Reporting System (SSITWR) to DI
   beneficiaries; and
4. establishing a Website for DI beneficiaries to report their wages easily and promptly.

SSI

The Annual Report also described the root causes of SSI over- and underpayments.
The major causes of SSI overpayments were excess financial accounts, wages, and in-
kind support and maintenance (ISM). The main causes of SSI underpayments were

21
     OMB Circular A-123, supra, Appendix C, Part III, Page 17.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)     5
wages, living arrangement “A,”22 and ISM. The Agency developed supplemental
measures and targets to help mitigate improper payments in the two consistently high
error categories: excess financial accounts and wages. These supplemental measures
included (1) access to financial institutions (AFI) and (2) SSITWR.

        AFI is an electronic process that verifies bank account balances with financial
institutions to determine SSI eligibility. AFI also detects undisclosed accounts by using
a geographic search to generate requests to other financial institutions nearest the
individual’s address. As of March 2011, the Agency had implemented AFI in 25 States.
The national rollout of AFI to the 50 States, District of Columbia, and Northern Mariana
Islands was completed in June 2011. The Agency projects that beginning in FY 2013,
the AFI program will save $900 million in lifetime program savings for each year it fully
implements the process.

         SSITWR is a dedicated telephone number that allows individuals to report their
wages via a voice-recognition system. Stewardship data indicated that wage-related
overpayment dollars resulted from fluctuating income and failure to timely report an
increase in wages. To simplify the reporting process, SSA created the SSITWR. In
October 2009, SSA required that field offices recruit all recipients, deemors, 23 and
representative payees to report their wages via SSITWR. As of March 2011, SSA’s
goal was to increase the number of monthly reporters participating in the SSITWR
initiative to 28,000 by the end of FY 2011. As of January 31, 2011, SSA was reporting
27,474 unique wage-reporting participants. SSA planned to continue promoting the use
of SSITWR for wage reporting through public information materials.

Plan for Ensuring the Initiatives Do Not Unduly Burden Program Access

OMB’s final requirement is that the Annual Report must contain the agency’s plan,
together with supporting analysis, for ensuring that initiatives undertaken to implement
the order do not unduly burden program access and participation by eligible
beneficiaries. 24 OMB will provide further guidance for this requirement; therefore, this
requirement was not included in the Annual Report. Once available, we will review the
applicable guidance and ensure future Agency reports contain the required information.

Quarterly High-Dollar Report to the OIG and CIGIE

Along with the Annual Report to the OIG, the Executive Order also requires that each
agency with programs susceptible to significant improper payments under IPIA submit a
report to the OIG and CIGIE on any high-dollar overpayments identified by the

22
  Living Arrangement “A” is used primarily when a person is considered to be living in his/her own
household. This occurs when SSA paid a person as if he or she were living with someone else when, in
fact, the recipient qualifies for a higher payment level, such as for those who live alone.
23
   A deemor is a person whose income and resources are required to be considered when determining
eligibility and computing the SSI payment amount for an eligible individual.
24
     OMB Circular A-123, supra, Appendix C, Part III, §. C (2)(c) 3.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)                6
agency. 25 According to the OMB Guidance, 26 a high-dollar overpayment is any
overpayment that exceeds 50 percent of the correct amount of the intended payment
where
1. the total payment to an individual exceeds $5,000 as a single payment or in
   cumulative payments for the quarter or
2. the payment to an entity 27 exceeds $25,000 as a single payment or in cumulative
   payments for the quarter.

SSA submitted quarterly high-dollar reports to the OIG for the reporting period
June 2010 and all subsequent quarters thereafter. The OIG issued a report in
December 2010 28 covering the high-dollar reporting periods June and September 2010.
We will issue a report on our review of the Agency’s high-dollar reports for FY 2011
under a separate cover.

Website Submission
According to the Executive Order, 29 agencies are required to submit certain information,
subject to Federal privacy policies and to the extent permitted by law, to the improper
payments Website. 30 This information should include

1. names of the accountable officials;
2. current and historical rates and amounts of improper payments, including, where
   known and appropriate, causes of the improper payments;
3. current and historical rates and amounts of recovery of improper payments, where
   appropriate (or, where improper payments are identified solely on the basis of a
   sample, recovery rates and amounts estimated on the basis of the sample);
4. targets for reducing as well as recovering improper payments, where appropriate;
   and


25
  74 Fed. Reg., supra at 62203, § 3(f). The reported information is also required to be made available to
the public. However, the required reporting is only to the extent permitted by law and is subject to
Federal privacy policies.
26
     OMB Circular A-123, supra, Appendix C, Part III, § C (3)(e).
27
  As stated in OMB Circular A-123, supra, Appendix C, Part III, § C (5)(n), an entity is a non-individual
that owes an outstanding improper payment. The term entity excludes an individual acting in either a
personal or commercial capacity (that is, a sole proprietor) and Federal, State, and local government
agencies.
28
  SSA OIG, The Social Security Administration’s Reporting of High-Dollar Overpayments Under
Executive Order 13520 (A-15-10-21142), December 2010.
29
  74 Fed. Reg., supra at 62202, § 2(b). Also see, OMB Circular A-123, supra, at Appendix C, Part III,
§ (C)(6)(s), which contains the same requirements.
30
     http://www.paymentaccuracy.gov.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)                     7
5. the entities that have received the greatest amount of outstanding improper
   payments (or, where improper payments are identified solely based on a sample, the
   entities that have received the greatest amount of outstanding improper payments in
   the applicable sample).

Along with providing the above information to the improper payments Website
established by OMB, SSA created a Website that provides additional details on
improper payments.31 Our review of the Website confirmed its information accurately
reflected the data in SSA’s Annual Report.

Risk and Oversight Assessed by the OIG

To assess the level of risk of the SSI and RSDI programs, we reviewed the Government
Accountability Office’s (GAO) 32 High-Risk Series reports to Congress. In 1997, 33 GAO
identified the SSI program as high-risk, and after legislation 34 was issued to improve
overpayment recovery and deterrence tools, it was removed from the list in 2003. 35
However, as of 2003, 36 GAO had identified all Federal disability programs, including the
disability portion of SSI and the DI programs, as high-risk areas. GAO stated that
current demographics have affected SSA’s ability to manage workloads and provide
timely and accurate disability decisions. Therefore, the disability portion of the SSI
program remains a high-risk area. In contrast, GAO had not identified the RSI program
as a high-risk program. As of February 2011, 37 Federal disability programs remained a
high-risk area.

We continue to have oversight of the SSI and RSDI programs through various audits
and evaluations. For the period April 1, 2010 through March 31, 2011, we issued
125 reports that identified over $214 million in questioned costs and $1 billion in Federal
funds that could be put to better use. We will continue monitoring SSA's programs by
conducting and supervising comprehensive financial and performance audits, and
making recommendations to maximize the effective operations of its programs most
vulnerable to fraud and abuse.




31
     http://www.ssa.gov/improperpayments.
32
 Effective July 7, 2004, GAO’s legal name was changed from the General Accounting Office to the
Government Accountability Office.
33
     GAO High-Risk Series, An Overview (GAO/HR-97-1), February 1997.
34
     Foster Care Independence Act of 1999, Pub. L. No. 106-169, 113 Stat.1822 (1999).
35
     GAO High-Risk Series, An Update (03-119), January 2003.
36
     Id.
37
     GAO High-Risk Series, An Update (11-278), February 2011.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)           8
ACCURACY OF REPORTED INFORMATION

We requested supporting documentation for all figures in the Annual Report. SSA was
able to provide supporting documentation for all figures in the Report; however, we
noted one error for non-monetary figures and two errors for monetary figures, for which
the supporting documentation did not accurately reflect the Report’s data. The
discrepancies, however, were not substantive to the overall report content. A listing of
these errors is in Appendix E. We informed SSA of these errors during our review, and
it has corrected the amounts in the Annual Report posted on its improper payments
Website.




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)    9
                                  Matters for Consideration
SSA accurately presented all required information from Executive Order 13520 in its
Annual Report except for one non-monetary figure and two monetary figures. The
Agency should have detected the errors through its quality review process.

To ensure the prevention, collection, and detection of improper payments continues
improving, SSA should continue efforts to address improper payments. Specifically,
SSA should evaluate legislative proposals to determine those that would have a positive
effect on prevention, collection, and detection of improper payments. Additionally, SSA
should continue seeking funding to cover the full cost of program integrity workloads,
such as CDRs and SSI redeterminations.

At the conclusion of our review, SSA provided the following comment to our report.

       We are implementing an enhanced internal quality review process to
       ensure prevention, collection, and detection of improper payments. We
       continue to seek funding in our annual budget submission to cover the
       cost of program integrity workloads. In addition, we formed a workgroup
       to consider legislative proposals to improve program integrity.




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)   10
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Executive Order 13520, Reducing Improper Payments
APPENDIX D – Defining Erroneous Payments
APPENDIX E – Discrepancies in Annual Report
APPENDIX F – OIG Contacts and Staff Acknowledgments




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)
                                                                           Appendix A

Acronyms
    AFI                Access to Financial Institutions
    AFR                Agency Financial Report
    APP                Annual Performance Plan
    CDR                Continuing Disability Review
    CIGIE              Council of Inspectors General on Integrity and Efficiency
    DI                 Disability Insurance
    FR                 Federal Register
    FY                 Fiscal Year
    GAO                Government Accountability Office
    GPO                Government Pension Offset
    IPIA               Improper Payments Information Act of 2002
    ISM                In-kind Support and Maintenance
    MEF                Master Earnings File
    OASI               Old-Age and Survivors Insurance
    OIG                Office of the Inspector General
    OMB                Office of Management and Budget
    OQP                Office of Quality Performance
    PAR                Performance and Accountability Report
    Pub. L. No.        Public Law Number
    RSDI               Retirement, Survivors and Disability Insurance
    RSI                Retirement and Survivors Insurance
    SEI                Self-Employment Income
    SGA                Substantial Gainful Activity
    SSA                Social Security Administration
    SSI                Supplemental Security Income
    SSITWR             Supplemental Security Income Automated Telephone Wage
                       Reporting System
    U.S.C.             United States Code




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)
                                                                        Appendix B

Scope and Methodology
Our objectives were to review the Accountable Official’s Annual Report to the Office of
the Inspector General (OIG), as required by Executive Order 13520, Reducing Improper
Payments, and determine whether the (1) figures presented were accurate and
(2) Agency complied with all requirements of the Executive Order. To accomplish our
objectives, we:

• Reviewed the Accountable Official’s Second Annual Report under Executive Order
  13520, Reducing Improper Payments, dated March 14, 2011.

• Reviewed applicable Federal laws.

• Reviewed applicable Office of Management and Budget guidance.

• Reviewed the Fiscal Year (FY) 2008 Stewardship Review Reports for the Old-Age,
  Survivors and Disability Insurance and Supplemental Security Income programs.

• Reviewed the FY 2009 Stewardship Review Report for the Old-Age, Survivors and
  Disability Insurance and Supplemental Security Income programs.

• Reviewed the Improper Payments Information Act of 2002 section of the
  FY 2010 Performance and Accountability Report.

• Requested data from the Offices of Financial Policy and Operations, Quality
  Performance, Payment Recovery and Policy, and the Chief Actuary to support the
  figures in the Annual Report.

• Analyzed the source data to ensure the accuracy of all figures.

• Analyzed the narrative of the report to ensure compliance with all requirements of the
  Executive Order.

We performed our review in May through July 2011 in Baltimore, Maryland. We
conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspections.




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)
                                                                        Appendix C
Executive Order 13520, Reducing Improper Payments




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)
SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126) C-1
SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126) C-2
SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126) C-3
SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126) C-4
SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126) C-5
                                                                                                                               Appendix D

Defining Erroneous Payments 1
The following table identifies the types of Social Security Administration (SSA) payments, programs affected, current reporting status,
reasons for the payments, and their classification. There are two classifications.

•     Unavoidable - Payments resulting from legal or policy requirements. These payments are not considered “erroneous” and may
      still be subject to recovery.
•     Avoidable - Payments that should be reflected in the erroneous payment estimate because they could be reduced through
      changes in administrative actions.

    Types of Payments             Program         Current Status           Reason for Overpayment/Underpayment                       Classification
                                   2          3
Payments following a             DI and SSI       Not currently     When SSA is required by law to make payments during the          Unavoidable
cessation of eligibility                          reflected as an   appeals process, these payments are not erroneous.
due to a continuing                               error
disability review
Payments made under              SSI              Reported as an    When due process requires that SSI payments continue,            Unavoidable
the Goldberg-Kelly                                unavoidable       although the Agency has determined that a payment reduction
due-process Supreme                               erroneous         or termination is in order, such payments are not erroneous.
Court decision                                    payment in the
                                                       4
                                                  APP
Payments made                    SSI              Reported as an    The law requires that SSI payments be made on the first of the   Unavoidable
incorrectly because of                            unavoidable       month based on projected income for that particular month.
program design                                    erroneous         Changes in the recipient’s status can occur during the month,
                                                  payment in the    which causes the recipient’s eligibility to change. Because
                                                  APP               SSA cannot prevent the overpayment, this situation should not
                                                                    be reflected in the Agency’s erroneous payment rate.


1
    Table provided by SSA’s Office of Financial Policy and Operations in July 2010.
2
    Disability Insurance (DI).
3
    Supplemental Security Income (SSI).
4
    Annual Performance Plan (APP).


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)                                                            D-1
    Types of Payments        Program          Current Status            Reason for Overpayment/Underpayment                          Classification
Payments issued after      OASI,5 DI,         Not currently     Dollars released after death (either electronically or in the form   Unavoidable
death                      and SSI            reflected as an   of a paper check) that are reclaimed by the Department of the        except for fraud
                                              error 6           Treasury or returned unendorsed should not be reflected in the       or misuse
                                                                Agency's erroneous payment rate. Conversely, payments
                                                                made after death that are improperly cashed or withdrawn, and
                                                                are subject to overpayment recovery, should be reported.
Non-receipt of payment     OASI, DI, and      Not currently     Duplicate payments issued in accordance with the Robinson-           Unavoidable
                           SSI                reflected as an   Reyf Court decision are unavoidable and should not be                except for fraud
                                              error             reflected in the Agency's reports on erroneous payments. The         or misuse
                                                                only exception is duplicates incorrectly sent to abusers.
Payments based on          DI and SSI         Not currently     Payments are not erroneous if they are the result of a medical       Should not be
medical eligibility                           reflected as an   improvement review standard or a situation where the                 included in the
                                              error             beneficiary would have been ineligible had the law permitted         erroneous
                                                                retroactive ineligibility.                                           payment
                                                                                                                                     estimate
Payments made for          DI and OASI        Not currently     When program design requires that the Agency make                    Unavoidable
Title II beneficiaries                        reflected as an   payments based on estimated earnings, these payments
based on earnings                             error             should not be considered erroneous.
estimates
Undetected error           OASI, DI, and      Not currently     The Agency should not reflect undetected error in its erroneous      Should not be
                           SSI                reported as an    payment rate unless it has evidence that a specific type of          included in the
                                              error             erroneous payment was made.                                          erroneous
                                                                                                                                     payment
                                                                                                                                     estimate
Duplicate payments to      Administrative     Not currently     Agency systems do not capture when the overpayment occurs;           Avoidable
attorneys, vendors, and    Expense            reported as an    however, this type of error does not meet the reporting
employees                                     error             threshold.




5
    Old-Age and Survivors Insurance (OASI).
6
 Per Office of Quality Performance (OQP), these payments can be recorded as erroneous if not returned timely per the stewardship review
protocol.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)                                                           D-2
                                                                                  Appendix E

Discrepancies in Annual Report1
Location in Annual Report                           Discrepancy Explanation

Page 16 – Graph: Continuing Disability Reviews      The Social Security Administration (SSA) reported
                                                    the Fiscal Year (FY) 2010 number of Full Medical
                                                    Continuing Disability Reviews as 324,567.
                                                    Supporting documentation showed 322,415
                                                    reviews conducted in FY 2010.


Page 18 – Continuing Disability Investigations      SSA reported Cooperative Disability Investigations
Savings                                             efforts resulted in savings of over $240 million to
                                                    the Agency’s disability programs and over $150
                                                    million to non-SSA programs in FY 2010.
                                                    Supporting documentation showed these amounts
                                                    were actually the totals for the last two quarters of
                                                    FY 2010.




1
 We informed SSA of these errors during our review, and it has corrected the amounts in the Annual
Report posted on its improper payments website.


SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director, Financial Audit Division

Acknowledgments
In addition to those named above:

   Kelly Stankus, Auditor

   Lori Lee, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-11-01126.




SSA’s Plan to Reduce Improper Payments Under EO 13520, as of March 2011 (A-15-11-01126)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
